VISA CREDIT CARD AGREEMENT - Continued
payments as regularly scheduled. This applies to August and September
Summer Skips. Call for complete details.
YOUR BILLING RIGHTS: KEEP THIS NOTICE FOR
FUTURE USE
What To Do If You Think You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
First Financial Credit Union
P.O. Box 90
West Covina, CA 91793
You may also contact us on the Web: mycu@ffcu.org
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of Problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong
You must notify us of any potential errors in writing (or electronically).
You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe this bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date the payment
is due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone

to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing (or electronically) at:
First Financial Credit Union
P.O. Box 90
West Covina, CA 91793
mycu@ffcu.org
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
NOTICE OF NEGATIVE INFORMATION — Federal law requires us
to provide the following notice to members before any “negative
information” may be furnished to a nationwide consumer reporting
agency. We may report information about your account to credit bureaus.
Late payments, missed payments, or other defaults on your account may
be reflected in your credit report.
SPECIAL RULES FOR CALIFORNIA RESIDENTS
If you are a California resident, our right to recover any credit extended
through the use of your credit card in making purchases from a retailer is
subject to good faith defenses which you have properly asserted as a buyer
under California law against the retailer from whom the card holder made
the purchases if: (a) the purchase price of the item as to which a defense is
asserted exceeds $50.00; (b) the purchase was made within the State of
California; (c) you have made a written demand upon the retailer with
respect to the purchase and attempted in good faith to obtain reasonable
satisfaction from the retailer, and (d) you give us written notice specifying
the retailer, the date of purchase, the purchase price, the goods or services
purchased, the nature of your defense with respect to the transaction, as
well as the action which you have taken in attempting to obtain
satisfaction from the retailer.
NOTICE TO CREDIT CARD APPLICANTS UNDER 21 — If you
are under 21 years old, you will need to show that you are able to make
payments, or you will need a cosigner (parent or guardian who assumes
joint liability) in order to open a credit card account.

Interest Rates and Interest Charges
*
Annual Percentage Rate

9.90%

(APR) for Purchases

to 21.90%*

Based on your creditworthiness.

APR for Balance Transfers
APR for Cash Advances

9.90%* to 21.90%*

Based on your creditworthiness.

First Financial Credit Union

9.90%* to 21.90%*

Based on your creditworthiness.

Penalty APR
When It Applies

N/A

Paying Interest

Your due date is at least 25 days after the
close of each billing cycle. We will not
charge you any interest on purchases if
you pay your entire balance by the due
date each month. We will begin charging
interest on cash advances and balance
transfers on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge
will be no less than $0.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer
Financial Protection Bureau at

VISA
CREDIT CARD
AGREEMENT

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment
Other Fees

N/A
4.00% per transaction with a
minimum of $5.00
2.00% of the transaction amount
Up to $15.00
None
Up to $35.00
Please refer to the Schedule of Fees for a
complete listing.

How We Will Calculate Your Balance: We use a method called “average
daily balance (including new purchases).”

P.O. Box 90
West Covina, CA 91793
(800) 537-8491
*All loans are subject to credit approval and all First Financial policies and
procedures. Terms and conditions subject to change. First Financial is an equal
opportunity lender. Federally insured by NCUA. The rate you will receive depends
on your credit history. Other terms and conditions may apply. For complete
information, please refer to the Platinum Visa Credit Card Agreement. 07/13

Terms and Conditions
Effective July 15, 2013

VISA CREDIT CARD AGREEMENT
In this agreement the words “you” and “your” mean each and all of those
who agree to be bound by this agreement; “card” means the Visa credit
card and any duplicates, renewals, or substitutions the credit union issues
to you; “account” means your Visa credit card line of credit account with
the credit union, and “credit union” means the credit union whose name
appears on this agreement or anyone to whom the credit union transfers
this agreement.
1. USING YOUR ACCOUNT — If you are approved for an account,
the credit union will establish a line of credit for you and notify you of
your credit limit. You agree that your credit limit is the maximum amount
(purchases, cash advances, finance charges, plus “other charges”) which
you will have outstanding on your account at any time. If you are over
your credit limit, you must pay the amount you are over before payments
will begin to restore your credit limit. You may request an increase in your
credit limit only by a method acceptable to the credit union. The credit
union has the right to reduce your credit limit, refuse to make an advance
and/or terminate your account at any time for any reason not prohibited
by law.
2. USING YOUR CARD — You understand that the use of your credit
card will constitute acknowledgement of receipt and agreement to the
terms of the credit card agreement. You may use your card to make
purchases from merchants and others who accept Visa cards. However,
you may not use your card to initiate any type of gambling transaction.
If you wish to pay for goods or services over the Internet, you may be
required to provide card number security information before you will be
permitted to complete the transaction. In addition, you may obtain cash
advances from the credit union and from other financial institutions that
accept Visa cards, and from some automated teller machines (ATMs).
(Not all ATMs accept Visa cards.) To obtain cash advances from an ATM,
you must use the personal identification number (PIN) issued to you for
use with your card. You agree that you will not use your card for any
transaction that is illegal under applicable federal, state, or local law.
3. RESPONSIBILITY — You agree to pay all charges (purchases and
cash advances) made to your account by you or anyone you authorize to
use your account. You also agree to pay all finance charges and other
charges added to your account under the terms of this agreement or
another agreement you made with the credit union. If this is a
co-applicant account, Section 16 also applies to your account.
4. FINANCE CHARGES — New purchases posted to your account
during a billing cycle will not incur a finance charge for that billing cycle
if you had a zero or credit balance at the beginning of that billing cycle, or
you paid the entire new balance on the previous cycle’s billing statement
by the payment due date of that statement; otherwise a finance charge will
accrue from the date a purchase is posted to your account. To avoid an
additional finance charge on the balance of purchases, you must pay the
entire new balance on the billing statement by the payment due date of
that statement. A finance charge begins to accrue on cash advances from
the date you get the cash advance or from the first day of the billing cycle
in which the cash advance is posted to your account, whichever is later.
The finance charge is calculated separately for purchases and cash
advances. For purchases, the finance charge is computed by applying the
daily periodic rate to the average daily balance of purchases. To get the
average daily balance of purchases, we take the beginning outstanding
balance of purchases each day, add any new purchases, and subtract any
payments and/or credits. This gives us the daily balance of purchases.
Then, we add all the daily balances of purchases for the billing cycle
together and divide the total by the number of days in the billing cycle.

This gives us the average daily balance of purchases. Balance transfers are
calculated in the same manner as cash advances. For cash advances, the
finance charge is computed by applying the daily periodic rate to the
average daily balance of cash advances. To get the average daily balance of
cash advances, we take the beginning outstanding balance of cash
advances each day, add in any new cash advances, and subtract any
payments and/or credits that we apply to the cash advance balance. This
gives us the daily balance of cash advances. Then, we add all the daily
balances of cash advances for the billing cycle together and divide the total
by the number of days in the billing cycle. This gives us the average daily
balance of cash advances.
The DAILY PERIODIC RATE and corresponding ANNUAL
PERCENTAGE RATE applicable to this account are provided and
disclosed in and below the table on the back side of this agreement.
5. OTHER CHARGES — The following other charges (fees) will be
added to your account, as applicable:
a. Cash Advance Fee: A cash advance fee of 4.00% per transaction
with a minimum of $5.00 will be charged for any cash advance
drawn against the Platinum Visa card.
b. Late Payment Fee: A late charge of $15.00 will be added to your
account if you are late making a payment by 15 days or more.
c. Return Check Fee: If a check or share draft used to make a
payment on your account is returned unpaid, you will be charged
a fee of $35.00 for each item returned.
d. Card Replacement Fee: You will be charged $10.00 for each
replacement card that is issued to you for any reason.
e. Document Copy Fee: You will be charged $25.00 for each copy
of a sales draft or statement that you request (except when the
request is made in connection with a billing error made by the
credit union).
f. Rush Fee: $30.00.
g. Collection Costs: You agree to pay all costs of collecting the
amount you owe under this agreement, including court costs and
reasonable attorney’s fees.
6. PAYMENTS — Each month you must pay at least the minimum
payment shown on your statement by the date specified on the statement
or no later than twenty-five (25) days from the statement closing date,
whichever is later. If your statement says the payment is “Now Due,” your
payment is due no later than twenty-five (25) days from the statement
closing date. You may pay more frequently, pay more than the minimum
payment or pay the total new balance in full. If you make extra or larger
payments, you are still required to make at least the minimum payment
each month your account has a balance (other than a credit balance). The
minimum payment is 3.00% of your total new balance, or $10.00,
whichever is greater, plus the amount of any prior minimum payments
that you have not made, and any amount you are over your credit limit.
The credit union also has the right to demand immediate payment of any
amount by which you are over your credit limit.
7. PAYMENT ALLOCATION — Subject to applicable law, your
payments may be applied to what you owe the credit union in any
manner the credit union chooses.
8. DEFAULT — You will be in default if you fail to make any minimum
payment or other required payment by the date that it is due. You will be
in default if you break any promise you make under this agreement. You
will be in default if you die, file for bankruptcy or become insolvent, that
is, unable to pay your obligations when they become due. You will be in
default if you make any false or misleading statements in any credit

application or credit update. You will also be in default if something
happens that the credit union believes may substantially reduce your
ability to repay what you owe. When you are in default, the credit union
has the right to demand immediate payment of your full account balance
without giving you notice. If immediate payment is demanded, you agree
to continue paying finance charges at the periodic rate charged before
default, until what you owe has been paid, and any shares that were given
as security for your account may be applied towards what you owe.
9. LIABILITY FOR UNAUTHORIZED USE/LOST/STOLEN CARD
NOTIFICATION — You agree to notify us immediately, orally or in
writing at P.O. Box 90, West Covina, CA 91793 or telephone
(800) 537-8491 Monday through Friday 7:00 A.M. to 7:00 P.M.,
Saturday 9:00 A.M. to 1:30 P.M., or (800) 682-6075 after business hours
and weekends, of the loss, theft, or unauthorized use of your credit card.
You may be liable for the unauthorized use of your credit card. You will
not be liable for unauthorized use that occurs after you notify us of the
loss, theft, or possible unauthorized use. You will have no liability for
unauthorized purchases made with your credit card, unless you are grossly
negligent in the handling of your card. In any case, your liability will not
exceed $50.00.
10. CHANGING OR TERMINATING YOUR ACCOUNT —
The credit union may change the terms of this agreement from time to
time. Notice of any change will be given in accordance with applicable
law. If permitted by law and specified in the notice to you, the change will
apply to your existing account balance as well as to future transactions.
Either you or the credit union may terminate this agreement at any time,
but termination by you or the credit union will not affect your obligation
to pay the account balance plus any finance and other charges you owe
under this agreement. You are also responsible for all transactions made to
your account after termination, unless the transactions were unauthorized.
The card or cards you receive remain the property of the credit union and
you must recover and surrender to the credit union all cards upon request
or upon termination of this agreement whether by you or the credit
union. The credit union has the right to require you to pay your full
account balance at any time after your account is terminated, whether it is
terminated by you or the credit union. If this is a co-applicant account,
Section 16 of this agreement also applies to termination of the account.
11. CREDIT REVIEW AND RELEASE OF INFORMATION —
You authorize the credit union to investigate your credit standing when
opening or reviewing your account. You authorize the credit union to
disclose information regarding your account to credit bureaus and
creditors who inquire about your credit standing. If your account is
eligible for emergency cash and/or emergency card replacement services,
and you request such services, you agree that we may provide personal
information about you and your account that is necessary to provide you
with the requested service(s).
12. RETURNS AND ADJUSTMENTS — Merchants and others
who honor your card may give credit for returns or adjustments, and they
will do so by sending the credit union a credit slip which will be posted to
your account. If your credits and payments exceed what you owe the
credit union, the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1.00 or more, it will be
refunded upon your written request or automatically after six (6) months.
13. ADDITIONAL BENEFITS/CARD ENHANCEMENTS —
This credit union may from time to time offer additional services to your
account, such as travel accident insurance, at no additional cost
to you. You understand that the credit union is not obligated to offer
such services and may withdraw or change them at any time.

14. FOREIGN TRANSACTIONS — Visa purchases and cash advances
made in foreign currencies will be debited from your account in U.S.
dollars. The exchange rate between the transaction currency and the
billing currency used for processing international transactions is a rate
selected by Visa from a range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary
from the rate Visa itself receives, or the government-mandated rate in
effect for the applicable central processing date, in each instance plus an
additional 2.00%. The exchange rate used on the processing date may
differ from the rate that would have been used on the purchase date or
cardholder statement posting date.
15. MERCHANT DISPUTES — The credit union is not responsible for
the refusal of any merchant or financial institution to honor your card.
The credit union is subject to claims and defenses (other than tort claims)
arising out of goods or services you purchase with the card if you have
made a good faith attempt but have been able to obtain satisfaction from
the merchant or service provider, and (a) your purchase was made in
response to an advertisement the credit union sent or participated in
sending you; or (b) your purchase cost more than $50.00 and was made
in your state or within one hundred (100) miles of your home.
16. CO-APPLICANT ACCOUNTS — If this is a co-applicant account,
each person on the account must sign the agreement (by signing on the
application). Each of you will be individually and jointly responsible for
paying all amounts owed under this agreement. This means that the credit
union can require any one of you individually to repay the entire amount
owed under this agreement. Each of you authorizes the other(s) to make
purchases or cash advances individually. Any one of you may terminate
the account and the termination will be effective as to all of you.
17. EFFECT OF AGREEMENT — This agreement is the contract
which applies to all transactions on your account even though the sales,
cash advances, credit, or other slips you sign or receive may contain
different terms.
18. NO WAIVER — The credit union can delay enforcing any of its
rights any number of times without losing them.
19. STATEMENTS AND NOTICES — Statements and notices will be
mailed to you at the most recent address you have given the credit union.
Notice sent to any one of you will be considered notice to all.
20. FINAL EXPRESSION — This agreement is the final expression of
the terms and conditions of this Visa line of credit between you and the
credit union. This written agreement may not be contradicted by
evidence of any alleged oral agreement.
21. COPY RECEIVED — You acknowledge that you have received a
copy of this agreement.
22. SIGNATURES — By signing in the Signature area of the application
form that was attached to this agreement when you received it, you agree
to the terms of this agreement. You should detach this agreement from the
application and retain it for your records.
SUMMER SKIPS — Summer Skips program is offered in the months of
August and September to FFCU Platinum Visa Credit Card holders who
have been in good standing; other restrictions may apply. No late fees or
penalty APR will apply. However, finance charges will continue to accrue
on the unpaid balance. If you elect to “skip” your August and September
payments and make only your minimum payments in the future, it will
take longer to pay off the unpaid balance and the total finance charges
you will pay will be higher than if you make your August and September
Continued on Back

